September 4, 2020
Via Electronic Filing and E-mail

Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, DC 20543
RE: Immigration and Customs Enforcement, et al., v. Padilla, et al., (20-234)
Dear Mr. Harris:
Respondents write to request a 60-day extension of time to file a brief in opposition to the
petition for writ of certiorari that was filed on August 24, 2020, and docketed on August 27,
2020. Specifically, Respondents seek to extend their response time from September 23, 2020 to
November 23, 2020. Respondents seek this extension in light of counsel’s competing personal
and professional obligations. First and foremost, the current public health emergency related to
COVID-19 has forced the closure of each of the offices where Respondents’ counsel normally
work. In addition, the pandemic has forced closures of schools, camps, and child care facilities,
which requires Respondents’ counsel to care for minor children during this time. Meanwhile, in
this context of reduced capacity, counsel for Respondents remain committed to other upcoming
filings and arguments.
Petitioners through counsel have indicated they do not object to this request. Thank you for your
attention to this matter.
Sincerely,

Matt Adams
Counsel for Respondents
matt@nwirp.org
cc:

Jeffrey B. Wall, Counsel for Petitioners
Jeffrey Atkins, Deputy Clerk
Danny Bickell, Deputy Clerk

